   Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




          Quality Oversight of
        Ambulatory Surgical Centers

Holding State Agencies and Accreditors Accountable
               Supplemental Report 2




                         JANET REHNQUIST
                         Inspector General

                           FEBRUARY 2002
                           OEI-01-00-00452
                            OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General and Joyce M. Greenleaf, MBA, Assistant Regional Inspector General.
Principal OEI staff included:

BOSTON                                                     HEADQUARTERS

Kenneth R. Price, Project Leader                           Linda Frisch, Program Specialist

Christopher T. Gould, MS, Program Analyst

Megan V. Smith, MPH, Program Analyst





          To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
            Reports are also available on the World Wide Web at our home page address:

                                           http://oig.hhs.gov/oei
                               EXECUTIVE SUMMARY

   PURPOSE

              To assess how CMS holds State agencies and accreditors accountable for their performance
              overseeing ambulatory surgical centers in the Medicare program.

   BACKGROUND

              In 2000, Medicare paid $1.6 billion for 4.3 million procedures performed in ambulatory
              surgical centers (ASCs). ASCs are generally free-standing facilities and may only bill Medicare
              for surgical procedures that the Centers for Medicare & Medicaid Services (CMS) has
              determined can be performed safely outside of the hospital. While ambulatory surgery has
              been shown to have good surgical outcomes, routine procedures can result in serious
              complications and death.

              Quality oversight of ASCs revolves around Medicare’s set of minimum health and safety
              requirements. CMS relies on States agencies (certification) and private accreditors
              (accreditation) to ensure that ASCs meet these requirements. CMS has approved three
              accreditors to oversee ASCs. The focus of both State agency certification and accreditation is
              on-site surveys of ASCs. CMS has not changed its approach to quality oversight since it began
              the ASC program in 1982.

              This report is the second of two that supplement the main report of this inquiry, A System in
              Neglect. Our companion report, Supplemental Report 1: The Role of Certification and
              Accreditation, assesses how State agencies and accreditors oversee ASCs. Our inquiry relies
              on a variety of data including claims and survey data, observations of surveys, and reviews of
              literature, laws, and regulations.

   FINDINGS

   CMS does little to hold State agencies and accreditors accountable to the
   Medicare program

              It does little to monitor their performance. CMS does not use electronic data reporting to
              track basic metrics of performance. It rarely conducts Federal oversight surveys to monitor
              review done by State agency and accreditation surveyors. Its formal evaluations of State
              agencies and accreditors provide little insight on performance.

              It provides almost no feedback on their performance. With little performance monitoring,
              CMS has little on which to base meaningful feedback to State agencies and accreditors.
              Routine, operational feedback to State agencies and accreditors is problematic, since policy
              emerges from one of several units within CMS.

Quality Oversight of ASCs: Holding the System Accountable   1                               OEI-01-00-00452
   CMS does little to hold State agencies and accreditors accountable to the public

              Survey results are not readily accessible. CMS does not publish the results of State
              agency surveys on the Medicare web site, the Medicare telephone hotline, or on-site at ASCs.
              Only one accreditor releases accreditation survey results to the public.

              State agency certification and accreditation provide few meaningful insights for
              comparing ASCs. State agency survey reports lack comparative information on ASCs’
              performance relative to their past or their peers. Only one accreditor provides such
              information.

              Complaint processes have limited accessibility. CMS does not provide prominent, clear
              instructions for complaining about poor care received in certified ASCs. Only one accreditor
              makes complaint instructions available on the web and over the telephone.

              CMS makes no information available on the performance of State agencies and
              accreditors. CMS does not publish the results of its formal evaluations, summaries of
              complaint volumes against State agency certified/accredited ASCs, or other aggregate
              information that would allow comparison across State agencies and accreditation agencies.

   RECOMMENDATIONS

   CMS should hold State agencies and accreditors fully accountable to the
   Medicare program
        Increase performance monitoring and use it as the basis of feedback to State agencies and
        accreditors. Performance monitoring should include: 1) using electronic data reporting to track
        basic metrics of performance; 2) conducting periodic Federal oversight surveys to monitor the
        review done during State agency and accreditation surveys; 3) conducting formal, periodic
        evaluations of State agencies’ and accreditors’ performance.

   CMS should do more to hold State agencies and accreditors accountable to the
   public
          Use the Medicare web site, the Medicare telephone hotline, and on-site postings to make
          performance information and complaint instructions for ASCs certified by State agencies more
          accessible to the public. Negotiate with the accreditors to increase accessibility of performance
          information and complaint instructions for accredited ASCs. Make performance reviews of
          State agencies and accreditors available to the public.




Quality Oversight of ASCs: Holding the System Accountable   2                              OEI-01-00-00452
                               TABLE                         OF               CONTENTS

                                                                                                                                         PAGE

   EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


   INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


   FINDINGS


              Little Accountability to Medicare . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


              Little Accountability to the Public . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


   RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


   APPENDICES


              A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

              B: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





Quality Oversight of ASCs: Holding the System Accountable                 3                                                OEI-01-00-00452
                                           INTRODUCTION


   PURPOSE

              To assess how CMS holds State agencies and accreditors accountable for their performance
              overseeing ambulatory surgical centers in the Medicare program.


   BACKGROUND

   Ambulatory Surgical Centers in the Medicare Program

              Medicare began covering services provided by ambulatory surgical centers (ASCs) in 1982.
              In 2000, Medicare paid $1.6 billion for 4.3 million procedures performed in ASCs. Currently,
              over 3,000 ASCs participate in the Medicare program. 1

              Although ASCs have operating rooms and recovery rooms, they are not hospitals. However,
              medical advances enable many of the same procedures that hospitals perform to be performed
              on an ambulatory basis in an ASC. In addition to ASCs, ambulatory surgery is also performed
              in physician offices and hospital outpatient departments. However, unlike hospital outpatient
              departments, ASCs are generally free-standing facilities that provide surgical services to
              patients not requiring hospitalization.2 An ASC may only bill Medicare for surgical procedures
              that the Centers for Medicare & Medicaid Services (CMS) has determined can be performed
              safely outside of the hospital.

   Growth of Ambulatory Surgical Centers

              The number of ASCs in the Medicare program has grown more dramatically than other surgical
              settings, increasing at a rate of almost 200 facilities a year.3 This growth is due to advances in
              medical technology, increased focus on patient convenience, and economic incentives created
              by changes in reimbursement systems. Furthermore, the growth of ASCs is projected to
              continue.4 For further discussion of the growth of ASCs, see Supplemental Report 1: The Role
              of Certification and Accreditation.

              While ambulatory surgery has been shown to have good outcomes, even routine procedures
              can result in serious complications and death.5 For example, a patient undergoing a routine
              Medicare-covered gynecologic procedure died in an ASC from complications during surgery; a
              patient whose bladder was perforated during surgery in an ASC was transported six blocks by
              wheelchair while bleeding to the nearest emergency room; a patient undergoing one of the most
              common procedures in Medicare, cataract extraction, went into cardiac arrest and died on the
              operating table in an ASC. While these adverse events could happen in any setting, the risk of
              such complications and the fact that more elderly patients with poorer health conditions are
              becoming

Quality Oversight of ASCs: Holding the System Accountable   4                                 OEI-01-00-00452
              candidates for ambulatory surgery, illustrate the importance of oversight of ASCs.6 Yet, since
              the inception of the ASC program in 1982, CMS’ approach to oversight remains unchanged.
              Despite the rapid evolution of ambulatory surgery and the growth in ASCs, there has been little
              assessment of the adequacy of its quality oversight.

   Quality Oversight of Ambulatory Surgical Centers

              Quality oversight of ASCs in the Medicare program revolves around Medicare’s Conditions of
              Coverage. The Conditions are minimum health and safety requirements that ASCs must meet
              in order to be eligible for Medicare reimbursement. They cover topics ranging from the
              credentialing and privileging of physicians to the governing body and management of a facility.
              The Conditions are established in the regulations by CMS.

              CMS relies on State agency certification and private accreditation to ensure that ASCs meet
              the Medicare Conditions of Coverage. Facilities must be certified by State agencies or
              accredited to participate in Medicare. They are free to choose which route they take. State
              agency certification is available to ASCs free of charge, while they must pay a fee to become
              accredited. Over 90 percent of ASCs choose to be certified by State agencies. Yet, the
              number of facilities choosing accreditation is growing.7 Some ASCs that are certified by State
              agencies are also accredited for reasons other than Medicare certification.

              The focus of both State agency certification and accreditation is routine inspections of ASCs,
              called surveys. Generally, surveys are conducted to add new ASCs to the Medicare program,
              reevaluate those already in the program, and respond to complaints or adverse events. State
              agency surveys follow CMS’ survey protocol, which is based on the Conditions. Accreditation
              surveys, however, follow accreditors’ own survey protocols and standards. Thus, only
              accreditors whose standards meet or exceed the Conditions have authority to approve ASCs
              for participation in the Medicare program. 8

              Medicare certification is carried out by State survey and certification agencies under agreement
              with CMS. CMS has given its approval to three accreditors to survey ASCs for the Medicare
              program: the American Association for Accreditation of Ambulatory Surgical Facilities, the
              Accreditation Association for Ambulatory Health Care, and the Joint Commission on
              Accreditation of Healthcare Organizations.9

   Holding State Agencies and Accreditors Accountable

              CMS has three main mechanisms for monitoring the performance of State agencies and
              accreditors and holding them accountable to the Medicare program:

              C	        Electronic reporting of survey activity: State agencies and accreditors
                        electronically transmit the results of their surveys to CMS on an ongoing basis.10 Such
                        reporting identifies the provider, survey date, standards not met by the provider, follow-
                        up activity, and other items for each State agency or accreditation survey. It is valuable
                        because it offers a cost-effective way for CMS to monitor


Quality Oversight of ASCs: Holding the System Accountable   5                                   OEI-01-00-00452
                        State agencies’ and accreditors’ progress surveying facilities and allows it to detect
                        emerging problems within their survey processes.

              C	        Federal oversight surveys: Federal oversight surveys are a quality assurance
                        mechanism whereby trained CMS staff either observe surveys unfold or validate
                        recently surveyed facilities’ compliance with the Conditions through resurvey. Federal
                        oversight surveys can encompass State agency certified and accredited facilities.
                        Observing surveys unfold is valuable because it allows CMS to gain insight about the
                        nature and extent of on-site review conducted on Medicare’s behalf by State agencies
                        and accreditors. Validating recently surveyed facilities’ compliance with the Conditions
                        is CMS’ traditional approach to Federal oversight surveys, but its value has been called
                        into question by previous OIG work.11

              C	        Periodic, formal evaluations: Periodic, formal evaluations are a mechanism whereby
                        CMS verifies the State agencies’ and accreditors’ activities against established criteria
                        and provides formal feedback on their performance. They also serve as the basis of
                        CMS’ decision whether or not to allow a State agency or accreditor to continue
                        surveying facilities on behalf of Medicare.

              As our health care system moves toward a consumer-oriented marketplace, public
              accountability takes on increasing importance. Public accountability leverages CMS’ oversight
              by focusing the attention of the public, Medicare beneficiaries, and interest groups on the
              performance of ASCs and how well State agencies and accreditors ensure that ASCs provide
              quality care. Indeed, consumer orientation and its implications on CMS’ programs comprise a
              major theme within CMS strategic plan.12 Below are three main mechanisms for holding State
              agencies and accreditors accountable to the public:

              C	        Public release of information on the performance of ASCs: Publishing information
                        such as survey results, statistics on complaints against facilities, and outcomes data
                        focuses public attention on how well State agencies and accreditors oversee ASCs.
                        This information is also essential for Medicare consumers who wish to make informed
                        decisions about where they receive their health care. While Medicare statute already
                        dictates that the results of State agency surveys be available to the public, the CMS
                        Administrator has recently reaffirmed CMS’ commitment to enhancing the information
                        available to the public on the Medicare program.13

              C	        Complaint processes: Complaint processes provide Medicare consumers a forum to
                        have their complaints about ASCs investigated by State agencies and accreditors.
                        They can identify poor or even dangerous ASCs for intervention and follow-up. CMS’
                        strategic plan highlights the importance of collecting and investigating complaints.14

              C	        Public release of information on the performance of State agencies and
                        accreditors: Through the release of the results of its periodic, formal evaluations of
                        State agencies and accreditors, CMS can focus public attention on how well



Quality Oversight of ASCs: Holding the System Accountable   6                                    OEI-01-00-00452
                        they oversee ASCs. Public disclosure also helps Medicare beneficiaries and their
                        families make informed decisions between using State agency certified or accredited
                        ASCs.

   This Inquiry and This Report

              This inquiry focuses on the oversight of ASCs and is part of a larger plan to assess the quality
              oversight of ambulatory surgery in the Medicare program. We chose to evaluate the oversight
              of ASCs first because they are one of the fastest growing settings for ambulatory surgery in
              Medicare.

              This report is the second of two that supplement the main report of this inquiry, A System in
              Neglect, which also contains the full text of the comments we received on the draft reports.
              Supplemental Report 1: The Role of Certification and Accreditation, assesses how State
              agencies and accreditors oversee ASCs.

              Our inquiry draws on a variety of sources. We analyzed data from CMS’ Online Survey
              Certification and Reporting System and the Medicare Part B file, as well as survey data from
              the three accreditors. We observed surveys of ASCs conducted by the accreditors and State
              agencies. We reviewed policy manuals from the accreditors, CMS’ State Operations and
              Regional Operations manuals, laws, regulations, and articles from newspapers, journals,
              newsletters, and magazines. In addition, through interviews both in-person and over the phone,
              we gathered information from representatives of CMS central and regional offices, State
              agencies, professional associations, and the American Association for Accreditation of
              Ambulatory Surgical Facilities, the Accreditation Association for Ambulatory Health Care, and
              the Joint Commission on the Accreditation of Health Care Organizations. For a more detailed
              description of the data sources we used for this inquiry, please see Appendix A.

              We conducted this inspection in accordance with the Quality Standards for Inspections
              issued by the President’s Council on Integrity and Efficiency.




Quality Oversight of ASCs: Holding the System Accountable   7                                 OEI-01-00-00452
                                                     FINDINGS

   CMS does little to hold State agencies and accreditors
   accountable to the Medicare program

   It does little to monitor the performance of State agencies and accreditors

              Electronic reporting of survey activity is underutilized. Despite the efficiency of doing so,
              CMS makes minimal use of this reporting to monitor the performance of State agencies and
              accreditors. CMS central office staff responsible for the quality oversight system for ASCs
              reported to us that their monitoring is limited to reviewing quarterly summaries of the top
              deficiencies. While this may lend insight to what State agencies and accreditors are finding in
              the field, it does little toward monitoring their performance. For example, CMS staff do not use
              the data to monitor elapsed time between surveys, follow through on complaints and
              deficiencies, or other basic metrics of performance. In fact, CMS staff were surprised when
              we told them that during two State agency surveys we observed, surveyors did not place the
              ASCs on accelerated termination tracks, even though both failed to meet 9 of the 10
              Conditions. Monitoring survey activity would have allowed CMS staff to detect this problem
              and intervene to correct it.

              Yet, even if CMS wished to enhance its monitoring of survey activity, the survey data that State
              agencies and accreditors provide have limitations that hinder their usefulness. For example,
              CMS staff cannot get a unified picture of survey activity in the ASC program because State
              agency and accreditation data each contain different information and are stored in separate,
              incompatible systems. Thus, it is difficult for CMS and State agencies to accurately discern
              which ASCs are accredited. This situation risks accidentally surveying accredited facilities,
              which is a poor use of State agencies’ resources and an added burden on accredited ASCs.
              Indeed, on one State agency survey we observed, CMS and State agency surveyors
              conducted a joint survey of an ASC only to learn at the end of the survey that it was accredited
              a year earlier. Meanwhile, at the time of the survey, 10 ASCs certified by State agencies in that
              State had not been surveyed in 10 years.

              Federal oversight surveys of ASCs are extremely rare . Since 1995, CMS conducted
              just 15 Federal oversight surveys of Medicare ASCs—11 of which were in California. In this
              time, State agencies and accreditors completed over 3,400 surveys of ASCs. However, with
              so few Federal oversight surveys, CMS is unlikely to have a firm grasp on what State agencies
              and accreditors are doing in the field. For example, while observing State agency and
              accreditation surveys of ASCs, we witnessed questionable performance assessing compliance
              with the life safety code, privileging standards, and other requirements. Federal oversight
              surveys allow CMS to uncover problems such as these and address them immediately.




Quality Oversight of ASCs: Holding the System Accountable   8                                OEI-01-00-00452
              Periodic, formal evaluations provide little information on performance. While CMS’
              process for annual evaluation of State agencies has been evolving for several years, its current
              approach fails to provide information on how well they oversee ASCs. CMS’ previous
              approach, the State Agency Quality Improvement Program, focused on the State agencies’
              overall performance completing tasks common to all types of providers, such as documenting
              deficiencies. However, this approach was criticized by OIG for providing a poor picture of
              performance and by GAO because it relied on unverified, self-reported data from State
              agencies.15,16 CMS’ newest approach sets national performance thresholds and uses more
              reliable data sources; however, right now it focuses only on nursing homes. CMS has yet to set
              forth criteria for evaluating State agencies’ performance overseeing other types of providers.

              Performance assessment plays a minor role in CMS’ evaluation of accreditors as well. CMS
              has authority to evaluate the performance of accreditors through oversight surveys. It also has
              the authority to assess the accreditors’ organizational capacity and operating policies, and that
              is where we found it to focus its reviews.17 In fact, CMS’ focus is so much on policy and
              paperwork that it is largely removed from accreditors’ conduct of surveys. For example,
              during a recent evaluation of one accreditor, only a fraction of the 3-day agenda focused on
              evaluating how well the accreditor ensured compliance with the Conditions, made accreditation
              decisions, and investigated complaints. To assess these functions, CMS relied on reviews of
              files from 15 surveys as well as information from the accreditor’s data system. The evaluation
              did not include reviews of files from any discretionary surveys, such as those for complaints or
              adverse events. Also, it did not bring to bear analysis of other data sources that could have lent
              insight to performance, such as the results of Federal oversight surveys and complaints that
              CMS received against accredited facilities.

   It provides little feedback to State agencies and accreditors on their performance

              With little performance monitoring, CMS has little on which to base meaningful feedback to
              State agencies and accreditors. In fact, CMS provides virtually no feedback to State agencies
              on their performance. In the past, CMS has sent each accreditor a quarterly report that
              compares, relative to the Conditions, its top 10 deficiencies to State agencies’ top 10
              deficiencies.18 But the report falls short of providing feedback on performance because it lacks
              commentary from CMS or other data that would shed light on the adequacy of performance,
              such as comparisons against performance goals or against accepted levels. In addition, CMS
              staff had proposed holding quarterly conference calls with the accreditors, but as of February
              2001, CMS has only held two such calls in the past nine quarters.

              Accreditors also receive letters after their formal evaluations that are supposed to provide
              feedback on their performance. However, we reviewed letters from the only two evaluations
              that CMS has done and found that both focused primarily on policies and procedures of the
              accreditors rather than performance. In fact, one provided consultation to the accreditor on
              how it should run itself, including advice about growing its non-Medicare business.19




Quality Oversight of ASCs: Holding the System Accountable   9                                 OEI-01-00-00452
              CMS’ routine, operational feedback to State agencies and accreditors is problematic, as well.
              Policy making for the ASC program is fragmented, emerging from one of several units within
              CMS with respect to ASCs, depending upon the subject matter at hand.20 Clear, consistent
              feedback from CMS is essential if State agencies and accreditors are to properly ensure that
              ASCs meet Medicare’s minimum standards. Yet, officials from State agencies and accreditors
              cited lingering confusion and inconsistency across surveyors over the permissibility of keeping
              Medicare patients for overnight stays, how often Life Safety Code surveys should be
              conducted, and which accreditors were approved to survey ASCs.



   CMS does little to hold State agencies and accreditors
   accountable to the public

   Survey results are not readily accessible

              CMS does little to publicize the availability of the results of State agency surveys or to make
              them accessible to Medicare consumers. CMS does not make survey results available on the
              Medicare web site, provide them over the Medicare telephone hotline, or require ASCs to post
              them for consumers to see. Instead, Medicare consumers must request them from a CMS
              regional office or a State agency, but the instructions for doing so are only available from the
              Medicare telephone hotline. The Medicare handbook, which CMS sends to all Medicare
              beneficiaries, makes no mention of the availability of survey results. Yet, CMS does more for
              other types of providers. For example, it provides nursing home surveys and comparative data
              on nursing homes on a special section of the Medicare web site called “Medicare Compare.”
              Also, CMS requires nursing homes to post recent survey results and State agencies to maintain
              a hotline for beneficiaries to obtain the results of home health surveys.

              Likewise, two of the three accreditors do little to make survey results readily accessible to the
              public. In fact, it is the policy of the Accreditation Association for Ambulatory Health Care and
              the American Association for Accreditation of Ambulatory Surgical Facilities not to release
              survey results to Medicare consumers. These organizations will only reveal whether an ASC is
              accredited, providing no indication of the relative quality of an ASC or areas of concern on
              prior surveys. By contrast, the Joint Commission makes its survey results available on its web
              page along with additional data for each ASC, including current accreditation status,
              accreditation and deficiency history, when it was last surveyed, as well as some comparisons to
              national data. In addition, Medicare consumers can also call the Joint Commission to request a
              copy of survey results free of charge.

   State agency certification and accreditation provide few meaningful insights for
   comparing ASCs

              State agency certification results in either a certified or non-certified status. Yet, it does




Quality Oversight of ASCs: Holding the System Accountable   10                                    OEI-01-00-00452
              not mean a facility is deficiency-free. For example, we observed 2 State agency surveys in
              which 9 out of 10 conditions were deficient, yet these ASCs remained certified. Surveyors can
              find ASCs deficient on any number of conditions or their related standards and can place ASCs
              on a 90- or 28-day termination track, during which the ASC completes a plan of correction.
              The public, however, remains unaware that an ASC was found deficient, required to submit a
              plan of correction, or placed on a termination track.

              Each of the three accreditors rely on their own systems for determining the accreditation status
              of ASCs. The American Association for Accreditation of Ambulatory Surgical Facilities, like
              State agency certification, has just one level of accreditation: fully accredited. If even one of the
              hundreds of standards is unmet, an ASC cannot be accredited. The Accreditation Association
              for Ambulatory Health Care and the Joint Commission, however, rely on multiple levels of
              accreditation based on the extent and nature of concerns identified during the survey. For
              example, between 1998 and 2000, 30 percent of ASCs surveyed by the Accreditation
              Association for Ambulatory Health Care were accredited for less than the full 3-year cycle
              based on survey findings. This information, however, is not disclosed to members of the public
              when they inquire about the accreditation status of an ASC.

              Historically, the Joint Commission has five levels of accreditation. In practice, however, 100
              percent of all ASCs it accredited between 1998 and 2000 have fallen into two levels:
              Accreditation with Commendation and Accreditation with Type I Recommendations. As of
              January 2000, the Joint Commission no longer uses Accreditation with Commendation.
              Accreditation with Type I Recommendations is a broad category that encompasses ASCs with
              few or many recommendations. Thus, with most ASCs falling into this one remaining category,
              it is difficult for the public to distinguish among ASCs accredited by the Joint Commission. The
              Joint Commission does, however, make some comparative data, which helps with these
              distinctions, available through its performance reports.

   Complaint mechanisms have limited accessibility

              Although CMS’ strategic plan highlights the importance of collecting and investigating
              complaints, it does little to make State agencies’ complaint process accessible to Medicare
              consumers.21 For example, it does not provide prominent, clear instructions for lodging
              complaints on the Medicare web site or over the Medicare telephone hotline, nor does it
              require ASCs to post complaint instructions.22, 23 While it does instruct beneficiaries to contact
              their local peer review organization within the Medicare handbook, recent OIG inquiries have
              found that peer review organizations have flawed complaint processes.24 CMS goes further to
              make complaint processes accessible for other provider types. For example, on the Medicare
              web site, CMS provides dedicated points of contact for complaints about dialysis facilities and
              nursing homes. Also, CMS requires States to maintain a toll-free hotline to handle complaints
              about home health agencies.25

              Each of the three accreditors include a telephone number on their certificates of




Quality Oversight of ASCs: Holding the System Accountable   11                                   OEI-01-00-00452
              accreditation, which ASCs generally post in a place visible to patients, although they are not
              required to by CMS. The Accreditation Association for Ambulatory Health Care and the Joint
              Commission solicit complaints and feedback from their web sites. The Joint Commission’s web
              site also provides instructions for submitting complaints by mail, email, and fax. It contains
              information on the complaint process and instructions for obtaining complaint-related
              information about accredited facilities. In addition, the Joint Commission also maintains a
              telephone hotline to answer questions about how to file complaints.

   CMS makes no information available on the performance of State agencies and
   accreditors

              CMS makes no information available to the public on how well State agencies and accreditors
              carry out their charge to the Medicare program. CMS does not publish the results of its formal
              evaluations, summaries of complaint volumes against State agency certified or accredited
              ASCs, or other aggregate information that would allow comparison across State agencies and
              accreditors.




Quality Oversight of ASCs: Holding the System Accountable   12                             OEI-01-00-00452
                                  RECOMMENDATIONS

              CMS relies on State agencies and accreditors to ensure that ASCs provide safe care to
              Medicare beneficiaries. Yet, despite being entrusted with such an important role, State
              agencies and accreditors operate with virtually no accountability to the Medicare program. In
              fact, CMS does so little to oversee State agencies and accreditors that the quality oversight
              system essentially runs itself. However, in our companion report, Supplemental Report 1: The
              Role of Certification and Accreditation, we found serious problems with the quality oversight
              system for ASCs that warrant expeditious and definitive action from CMS.

   CMS should hold State agencies and accreditors fully
   accountable to the Medicare program

   Use electronic data reporting to track basic metrics of performance

              Electronic reporting of survey data offers an efficient and cost-effective way to monitor State
              agencies’ and accreditors’ oversight activity. Metrics such as elapsed time between surveys,
              follow-through with deficiencies and complaints, and trends in deficiency citations would allow
              CMS to detect problems within State agency certification and accreditation and take actions to
              correct them. Most notably, they would enable CMS and State agencies to better manage
              survey resources, thus avoiding problems we found such as unresolved complaints and letting
              ASCs go 10 or more years without a survey.

              Yet, to make better use of survey data, CMS must address limitations in their structure. We
              note that CMS is in the process of designing a new system for survey data and, in fact, is
              already using it for nursing homes and home health agencies. Thus, as CMS plans to move
              ASCs onto its new system, we offer three recommendations. First, CMS should ensure that its
              approach captures both State agency and accreditation data within a common system and
              within a common format. This would enable State agencies to identify and avoid surveying
              accredited ASCs and allow CMS to get a global picture of performance across State agencies
              and accreditors. Second, CMS should ensure that its system captures data on termination
              tracks, plans of correction, and reduced accreditation periods. These data are essential to
              monitoring and managing remedial actions taken by Medicare’s system of quality oversight for
              ASCs. Third, if CMS implements standardized performance indicators for ASCs, its system
              should house such data and support their use for adjusting the frequency and focus of surveys
              — as its new system does now for nursing homes and home health agencies.26

   Conduct and use periodic Federal oversight surveys to monitor the nature and
   extent of review done during State agency and accreditation surveys

              Surveys are the centerpiece of the State agency certification and accreditation processes.




Quality Oversight of ASCs: Holding the System Accountable   13                               OEI-01-00-00452
              They form the primary interaction between State agencies and accreditors and the facilities they
              oversee. Observing these surveys can offer valuable insight about the nature and extent of
              review conducted by State agencies and accreditors. However, in Supplemental Report 1: The
              Role of Certification and Accreditation, we find problems with how State agencies and
              accreditors survey ASCs. Chiefly, we find that surveys were imbalanced because State
              agencies focus entirely on ensuring compliance with minimum standards while accreditors
              instead focus primarily on continuously quality improvement. In that report, we recommend
              that CMS ensure that oversight of ASCs is appropriately balanced between compliance and
              continuous quality improvement. Federal oversight surveys would be an important component
              in an effort to this end because it would help CMS gain insights to that balance. Without such
              surveys, it is nearly impossible for CMS to judge the adequacy of review conducted by State
              agencies and accreditors on Medicare’s behalf. In conducting these surveys, CMS should use
              an approach that allows for consistency among reviewers and they contribute toward formal
              feedback to State agencies and accreditors.

   Conduct formal, periodic evaluations of State agencies’ and accreditors’
   performance overseeing ASCs

              Formal, periodic evaluations of State agencies and accreditors are an important opportunity for
              CMS to collect and review performance data on a macro level. CMS’ newest approach to
              evaluation of State agencies uses national thresholds which are based on measurable indicators
              of performance—but thus far it focuses only on nursing homes. We urge CMS to broaden the
              scope of its evaluations of State agencies to incorporate other types of providers, including
              ASCs, and to use them to examine performance specific to each type of provider they survey.
              In addition, CMS should focus its evaluations of accreditors toward assessing their
              performance overseeing ASCs, rather than assessing their organizational capacity and operating
              policies.

   Provide feedback to State agencies and accreditors on their performance

              Ongoing and periodic feedback are essential to ensuring that State agencies and accreditors are
              meeting CMS’ expectations. Yet, providing feedback requires a meaningful set of performance
              expectations and mechanisms that collect data on performance. In parallel with its effort to
              improve its performance monitoring, CMS should work with State agencies and accreditors to
              establish a common set of performance expectations for the oversight of ASCs. CMS should
              also pay particular attention to consistency across surveyors. Once this is done, CMS should
              use electronic survey data, federal oversight surveys, and formal evaluations to inform ongoing
              and periodic feedback to State agencies and accreditors.

              In addition, CMS should consider establishing a policy clearinghouse as a way of disseminating
              policy to State agencies and accreditors in a simultaneous and consistent manner. Information
              within the clearinghouse might range from coverage policy that affects quality oversight, such as
              the permissibility of overnight stays, to performance expectations and guidelines for reporting
              electronic survey data. Such a clearinghouse



Quality Oversight of ASCs: Holding the System Accountable   14                                OEI-01-00-00452
              would promote more consistent interpretations and eliminate the confusion around CMS policy
              that we observed during our review. We note that CMS has already established a similar
              clearinghouse for nursing homes.

   CMS should do more to hold State agencies and accreditors
   accountable to the public

              As our health care system moves toward increasing public accountability, information about the
              performance of ASCs, how to complain about poor quality of care, and the performance of the
              quality oversight system itself remains woefully inadequate.

   Take steps to increase availability of performance information about ASCs
   certified by State agencies, including publishing it on the Medicare web site

              Performance information is essential for Medicare beneficiaries who wish to make informed
              decisions about where they receive their health care. Accordingly, CMS should make full use
              of mechanisms it has available to disseminate performance information about ASCs. For
              example, with little effort, CMS could immediately place the results of State agency surveys on
              the Medicare web site, as it has done for nursing homes and dialysis facilities. In addition,
              CMS should make them available by request over the Medicare telephone hotline and provide
              instructions for obtaining them within the Medicare Handbook. Finally, CMS should require
              ASCs to post survey results on-site for patients to see—as it now does with nursing homes.

              However, survey reports alone are limited in that they reveal little beyond the results of a single
              survey of a single ASC. Thus, CMS should explore ways to improve their usefulness to
              Medicare consumers by adding comparative information such as the average number and types
              of deficiencies outstanding at all ASCs. In addition, CMS should seek to supplement them with
              other data that it already has available, such as the facility’s survey and complaint history.
              Finally, if CMS were to implement performance indicators for ASCs, summaries and
              comparisons of these data should be made available to consumers as well.

   Increase the accessibility of State agencies’ certification complaint mechanism

              Complaints serve as an important tool for beneficiary protection and as a valuable source of
              information on potentially poor providers. As part of its commitment to collecting and
              investigating complaints, CMS should make full use of tools it has available to solicit them.
              Specifically, CMS should make clear, easy-to-find instructions for how to complain about
              ASCs available on the Medicare web site and over the Medicare telephone hotline. CMS
              should also require ASCs to post complaint instructions on-site for patients to see.




Quality Oversight of ASCs: Holding the System Accountable   15                                 OEI-01-00-00452
   Negotiate with the accreditors to increase information available to Medicare
   consumers and to increase the accessibility of their complaint mechanisms

              As the number of Medicare ASCs overseen by the three accreditors continues to grow, it is
              important that CMS ensures that each is responsive to Medicare consumers. Accordingly, we
              recommend that CMS work with them to define a minimum amount of information that they will
              make available about each Medicare ASC they accredit. Similarly, CMS should work with the
              accreditors to ensure that their complaint mechanisms are accessible to Medicare consumers.
              In both cases, each of the accreditors already has in place a web site and telephone number
              where they could make information available. Finally, should CMS require ASCs certified by
              State agencies to post performance results and complaint instructions, it should extend this
              requirement to accredited ASCs as well.

   Publish performance reviews of State agencies and accreditors

              Public disclosure of performance information holds State agencies and accreditors accountable
              for how well they ensure that ASCs meet Medicare’s minimum safety requirements. Such
              information can also be useful for Medicare beneficiaries who have a choice between State
              agency certified and accredited facilities. Thus, CMS should use the Medicare web site, the
              Medicare telephone hotline, and other resources to disclose performance reviews of State
              agencies and accreditors. Information it discloses could include comparative summaries of
              survey data reporting, results of Federal oversight surveys, and formal evaluations. Should
              CMS implement performance indicators for ASCs, information could also include comparative
              summaries of the performance of State agency certified and accredited ASCs.




Quality Oversight of ASCs: Holding the System Accountable   16                             OEI-01-00-00452
                                                                                           APPENDIX A



                                                            Methodology


   Center for Medicare & Medicaid Services

              Data. We obtained dates of State agency surveys from CMS’ Online Survey Certification and

              Reporting System (OSCAR). CMS authorizes States to update and maintain this database

              with survey information. We used OSCAR to gather basic demographic information on ASCs

              certified by State agencies as well as explore the accuracy of data in OSCAR on those ASCs

              that are accredited. We extracted survey data pertaining to the frequency of State agency

              surveys between 1990 and 2000. In addition, we used OSCAR to identify ASCs that had a

              complaint survey between 1995 and 2000. We analyzed these data sets using the SAS

              software program. We are satisfied that our information is as accurate as CMS’ OSCAR

              system.


              Additionally, we obtained other descriptive information using OIG-generated random samples

              of 1 percent of Medicare’s Part B claims from 1990 and 2000. We used these samples to

              determine the total number of procedures taking place in ASCs, to sum reimbursement, to

              identify the top procedures, and to find what Medicare approved procedures are being

              performed in ASCs. Also, by applying the Berenson-Eggers Type of Service codes to the

              samples, we determined the number of major procedures taking place in ASCs. We

              conducted all of our analysis of Medicare claims data using SAS software. We are satisfied

              that our information is as accurate as the Part B 1 percent sample files.


              Documents. We reviewed a variety of documents from CMS, including:

              C    Budget call letters for each year from 1995 to 2001

              C    Regional Office and State Operations Manuals

              C    ASC Conditions of Coverage and Interpretive Guidelines

              C    Strategic plan

              C    CMS data compendium from 1995 to 1999

              C    Internal policy memos from the central and regional offices

              C    Documentation of CMS evaluation of the accreditors

              C    Correspondence with the accreditors


              Finally, we reviewed 18 ASC complaint files from both State agencies and CMS regional

              offices from the years 1995 to 2000. We chose complaint files for review based on information

              obtained from OSCAR on date of complaint survey, number of complaints, and follow-up

              action taken. Additionally, we reviewed documents pertaining to CMS’ evaluation of the

              accreditors’ performance, as well as the findings of CMS oversight surveyors at site visits with

              the accreditors.





Quality Oversight of ASCs: Holding the System Accountable       17                          OEI-01-00-00452
                                                                                               APPENDIX A



              Interviews. We interviewed CMS employees involved with the ASC program at both central
              and regional offices.

   State Survey Agencies

              We interviewed State surveyors and State health agency officials involved in the State agency
              certification of ASCs. We obtained a variety of documents from State agency surveys
              including checklists used by surveyors and final survey findings including deficiencies found and
              plans of correction.

   Accreditors

              We interviewed officials from all three accreditors. We also reviewed documents from the
              three organizations, including mission statements, accreditation manuals, policies, and ASC
              survey reports, communication from CMS, and complaint files. We requested and received
              aggregate data from these organizations reflecting their survey activity and findings over the last
              3 years. In addition, we attended surveyor training sessions for the American Association for
              Accreditation of Ambulatory Surgery Facilities and Accreditation Association for Ambulatory
              Health Care.

   Survey Observation

              We observed a total of nine ASC surveys in seven states during the course of this study. Four
              were State agency surveys and five were accreditation surveys.

   Other Sources

              Other sources of information that we used for this report include relevant laws and regulations.
              We also reviewed a variety of articles from newspapers, peer reviewed journals, medical text
              books, and medical web sites. Finally, we interviewed stakeholders, including consumer
              advocates, members of several professional associations, practicing physicians, and practicing
              lawyers.




Quality Oversight of ASCs: Holding the System Accountable   18                                  OEI-01-00-00452
                                                                                           APPENDIX B


                                                            Endnotes


   1. CMS’ Online Survey Certification and Reporting System (OSCAR), March 5, 2001.

   2. 42 C.F.R., sec. 416.2.

   3. Only comprehensive rehabilitation facilities and rural health clinics have experienced a higher rate of
   growth. OEI analysis of Part B Medicare data. See Supplemental Report 1: The Role of
   Certification and Accreditation for further details.

   4. SMG Solutions, 2000 Report & Directory Freestanding Outpatient Surgery Centers (FOSCs):
   Industry Characteristics, Trends, Market projections, and Comparative Analysis, 2000, 24.

   5. Mark A. Warner et al., “Major Morbidity and Mortality Within 1 Month of Ambulatory Surgery and
   Anesthesia,” Journal of the American Medical Association 270 (September 22, 1993) 12: 1437-
   1441.

   G. Mezei & F. Chung, “Return hospital visits and hospital readmissions after ambulatory surgery,”
   Annals of Surgery 230 (November 1999) 5: 721-727.

   Rebecca Twersky et al., “What happens after discharge? Return hospital visits after ambulatory
   surgery,” Anesthesia & Analgesia 84 (February 1997) 2: 319-324.

   6. Margaret Jean Hall et al., “Ambulatory Surgery in the United States, 1996,” Advance Data: National
   Center for Health Statistics, Centers for Disease Control 300 (August 12, 1998).

   Mark A. Warner et al., “Major Morbidity and Mortality Within 1 Month of Ambulatory Surgery and
   Anesthesia,” Journal of the American Medical Association 270 (September 22, 1993) 12: 1437-
   1441.

   7. Based on data provided to OIG by the three accreditors.

   8. Social Security Act, sec. 1865, 42 U.S.C. 1395bb.

   9. CMS announced in the Federal Register (50 Fed. Reg. 66, 14906, March 14, 2001) that the
   American Osteopathic Association (AOA) applied for recognition as a national accreditation program
   for ASCs for the Medicare program. As of the date this report was issued the AOA had not yet been
   approved to accredit Medicare ASCs. The Joint Commission on the Accreditation of Health Care
   Organizations and the Accreditation Association for Ambulatory Health Care have been approved
   since December 19, 1996 ( 245 Fed. Reg. 61, 67042, Dec. 19, 1996). The American Association for
   Accreditation of Ambulatory Surgical Facilities has had approval since December 2, 1998 (231 Fed.
   Reg. 63, 66554, Dec. 2, 1998).




Quality Oversight of ASCs: Holding the System Accountable      19                            OEI-01-00-00452
                                                                                            APPENDIX B


   10. State agencies send survey data to CMS’ Online Survey and Certification and Reporting System
   (OSCAR) as they complete surveys. The system has a number of preprogrammed reports and is
   accessible to all CMS staff and State agencies. Accreditors began reporting survey data on a quarterly
   basis in 2000.

   11. Department of Health and Human Services, Office of Inspector General, The External Review of
   Hospital Quality: Holding the Reviewers Accountable, OEI-01-97-00053, July 1999.

   12. CMS Strategic Plan, Publication HCFA-02135, September, 1998.

   13. Using Technology to Improve Medicare Before the Subcomm. on Science, Technology, and
   Space of the Senate Comm. on Commerce, Science, and Transportation, 107th Cong., 1st Sess. 78
   (2001).

   14. CMS Strategic Plan, Publication HCFA-02135, September, 1998, p. 29.

   15. Department of Health and Human Services, Office of Inspector General, The External Review of
   Hospital Quality: Holding the Reviewers Accountable, OEI-01-97-00053, July 1999.

   16. U.S. General Accounting Office, Nursing Home Care: Enhanced CMS Oversight of State
   Programs Would Better Ensure Quality, GAO/HEHS-00-06, November 1999.

   17. In 42 CFR part 488, CMS lays out its authority for Federal review of accreditation organizations.
   According to this regulation, continuing Federal oversight of accreditation organizations will consist of
   comparability reviews, which ensure that the accreditor’s and CMS’ requirements are equivalent, and
   validation reviews, which summarize the results of validation surveys of accredited facilities. If validation
   surveys generate a 20 percent disparity rate or a widespread problem with the accreditor’s process,
   CMS may take corrective action steps against the accreditor. One step it can take is a deeming
   authority review, a basic review in which CMS reviews the accreditor’s policies and capacities as if it
   were a new accreditor applying for deemed status. It is this review that CMS conducts of accreditors,
   even though it has no performance-based information from validation surveys as a reason for doing so.

   18. For this report, CMS staff use a crosswalk to convert each accreditor’s deficiencies to the
   comparable Medicare Condition(s) so that the accreditor’s deficiencies can be roughly compared to
   those of State agencies.

   19. In correspondence to an accreditor, CMS made recommendations related to corporate ventures
   unrelated to the Medicare program.

   20. Groups from within three units of CMS issue policy regarding ASCs: the Office of Clinical
   Standards and Quality (OCSQ), the Center for Medicaid and State Operations (CMSO), and the
   Center for Medicare Management (CMM). OCSQ writes the Conditions of Coverage for ASCs and
   does clinical evaluation of perspective ASC procedures. One group within CMSO writes the
   interpretive guidelines for carrying out the Conditions in the field and monitors their implementation


Quality Oversight of ASCs: Holding the System Accountable   20                                OEI-01-00-00452
                                                                                          APPENDIX B


   within surveys. Three other groups in CMSO have responsibility for one or more of the following:
   overseeing accreditation organizations, formulating the annual budget for certification surveys, and
   evaluation of State agencies. CMM writes the insurance coverage for procedures that have been
   approved for ASCs.

   21. CMS Strategic Plan, Publication HCFA-02135, September, 1998.

   22. As of July, 2001, the Medicare website (www.medicare.gov) listed points of contact for quality of
   care and complaints together in a section called ‘Helpful Contacts’, placed two levels beneath the front
   (home) page . The list contained points of contact for dozen entities including those for complaints
   about nursing homes and end stage renal disease dialysis facilities. Peer Review Organizations appeared
   at the end of the list as a point of contact for complaints about quality of care. There were no
   instructions about how the complaint process works, its time lines, or beneficiaries’ rights within the
   complaint process.

   23. We called the Medicare telephone hotline (1-800-MEDICARE) twice in February, 2001 to find
   instructions for complaining about poor care. One time the operator referred us to the Peer Review
   Organization and the other to the State agency.

   24. See Office of Inspector General, The Beneficiary Complaint Process of the Medicare Peer
   Review Organization, OEI-01-93-00250, November 1995 and The Medicare Beneficiary
   Complaint Process: A Rusty Safety Valve, OEI-01-00-00060, August 2001.

   25. Social Security Act, sec. 1864 (42 U.S.C. 1395aa).

   26. CMS’ new system, called the Quality Improvement and Evaluation System (QIES), uses the
   Minimum Data Set merged with OSCAR data to allow State agencies to monitor the performance of
   nursing homes. CMS also uses these data to monitor the performance of State agencies. CMS is now
   integrating the Home Health Care Outcome and Assessment Information Set into QIES to allow for
   similar capability for overseeing home health agencies.




Quality Oversight of ASCs: Holding the System Accountable   21                             OEI-01-00-00452
